UNITED STATES COURT OF APPEALS
FOR THE EIGHTH CIRCUIT

No: 21-1338

Joseph Arguello
Petitioner - Appellant
v.
Jason Ravnsborg, Attorney General for South Dakota; Darin Young, Warden State Penitentiary
Respondents - Appellees
Appeal from U.S. District Court for the District of South Dakota - Southern
(4:20-cv-04088-KES)
JUDGMENT
Before LOKEN, WOLLMAN, and GRASZ, Circuit Judges.

This appeal comes before the court on appellant's application for a certificate of
appealability. The court has carefully reviewed the original file of the district court, and the
application for a certificate of appealability is denied. The appeal is dismissed.
Appellant’s motion to proceed in forma pauperis is denied as moot.

May 11,2021

Order Entered at the Direction of the Court:
Clerk, U.S. Court of Appeals, Eighth Circuit.
/s/ Michael E. Gans

Case 4.20-cv-04088-KES Docurnent 20 Filed 01/28/21 Page 1 of 1 PagelD #: 207

UNITED STATES DISTRICT COURT
DISTRICT OF SOUTH DAKOTA
SOUTHERN DIVISION
JOSEPH ARGUELLO

4:20-CV-4088-KES

Petitioner,
vs.

JUDGMENT

JASON R. RAVNSBORG, Attorney
General for South Dakota; and DARIN
YOUNG, Warden State Pennitentiary,
Respondents.
U:k1,t

Order Adopting Report and Rt, o,nm.,H:uri

„nd Dismissing

Petition, it is
ORDERED, ADJUDGED, AND DECREED that judgment is entered in
favor of respondents and against petitioner, Joseph Arguello.
DATED January 28, 2021.
BY THE COURT:
7s/ ‘Karen <E. Sckreier_____
KAREN E. SCHREIER
United States District Judge

UNITED STATES COURT OF APPEALS
FOR THE EIGHTH CIRCUIT
No: 21-1338
Joseph Arguello
Appellant
v.
Jason Ravnsborg, Attorney General for South Dakota and Darin Young, Warden State
Penitentiary
Appellees

Appeal from U.S. District Court for the District of South Dakota - Southern
(4:20-cv-04088-KES)
MANDATE
In accordance with the judgment of 05/11/2021, and pursuant to the provisions of Federal
Rule of Appellate Procedure 41 (a), the formal mandate is hereby issued in the above-styled
matter.
June 01, 2021

Clerk, U.S. Court of Appeals, Eighth Circuit

Case 4:20-cv-04088-KES Document 19 Filed 01/28/21 Page 1 of 4 PagelD #: 203

UNITED STATES DISTRICT COURT
DISTRICT OF SOUTH DAKOTA
SOUTHERN DIVISION
JOSEPH ARGUELLO,

4:20-CV-04088-KES

Petitioner,
vs.

JASON R. RAVNSBORG, Attorney
General for South Dakota; and DARIN
YOUNG, Warden State Pennitentiaiy,

ORDER ADOPTING REPORT AND
RECOMMENDATION AND
DISMISSING PETITION

Respondents.

corpus 28 U.S.C. § 2254. The matter was referred to Magistrate Judge Veronica
L. Duffy for a report and recommendation and she recommended dismissing
the petition for failure to file the petition within the one-year statute of
limitations period under the Antiterrorism and Effective Death Penalty Act
(AEDPA). Docket 17. Arguello timely filed an objection to the report and
recommendation. Docket 18. For the following reasons, the court adopts
Magistrate Judge Duffy’s report as supplemented herein.
STANDARD OF REVIEW
The court’s review of a magistrate judge’s report and recommendation is
governed by 28 U.S.C. § 636 and Rule 72 of the Federal Rules of Civil
Procedure. Under 28 U.S.C. § 636(b)(1), the court reviews de novo any

Case 4:20-cv-04088-KES Document 19 Filed 01/28/21

Page 2 of 4 Page ID#: 204

objections to the magistrate judge’s recommendations with respect to
dispositive matters that are timely made and specific. See Fed. R. Civ.

P. 72(b).

("The district judge must determine de novo any part of the magistrate judge’s
disposition that has been properly objected to”). In conducting its de novo
review, this court may then “accept, reject or modify, in whole or in part, the
findings or recommendations made by the magistrate judge.”

28 U.S.C.

§ 636(b)(1); see also United States v. Craft, 30 F.3d 1044, 1045 (8th Cir. 1994).
DISCUSSION
Arguello objects to that portion of the report and recommendation that
finds that the time limits under the AEDPA were not equitably tolled. He cites
some case law to show that equitable tolling in general is proper. Docket 18 at
2. But he does not cite any facts to show why equitable tolling should be
applied to his case.
The Supreme Court has held that the limitations period set forth in
“§ 2244(d) is subject to equitable tolling in appropriate cases.” Holland v.
Florida, 560 U.S. 631, 645 (2010). “[But] a petitioner is entitled to equitable
tolling only if he shows (1) that he has been pursuing his rights diligently, and
(2) that some extraordinaxy circumstance stood in his way and prevented
timely filing. Id. at 649 (internal citation and quotations omitted). The Eighth
Circuit Court of Appeals has applied the holding in Holland and found that a
counsel s miscalculation of a filing deadline is a “garden variety claim” of
neglect that does not warrant equitable tolling. Rues v. Denney, 643 F.3d 618,
622 (8th Cir. 2011).
2

Case 4:20-cv-04088-KES Docurnent 19 Filed 01/28/21 Page 3 of 4 PagelD #: 205

Here, Arguello does not provide the court with any facts to show that he
pursued his rights diligently and that extraordinaiy circumstances

stood in his

way to prevent the timely filing of his petition. The court finds that Arguello is
not entitled to equitable tolling and his petition is time barred under the
AEDPA.
Arguello cites many other cases and provides summaries of those

cases

in his objections, but he does not make an understandable argument as to how
those cases apply to his claim. As a result, the court overrules his objections to
the report and recommendation and finds that his petition is time barred.
CONCLUSION
court has reviewed Magistrate Judge Duffy’s reporf and
recommendation de novo and Arguello’s objections. This court adopts the
report and recommendation and dismisses Arguello’s petition for relief with
prejudice.
Furthermore, based upon the reasons stated and under Fed. R. App.
P. 22(b), the court finds that petitioner has not made a substantial showing of
the denial of a constitutional right. 28 U.S.C. § 2253(c)(2). Thus,

a certificate

of appealability is denied.
Thus, it is ORDERED
1. That the report and recommendation (Docket 17) is adopted

in full as

supplemented herein. Arguello’s pro se petition for habeas corpus is
'

denied with prejudice

3

Case 4:20-cv-04088-KES Document 19 Filed 01/28/21 Page 4 of 4 PagelD #: 206

2. Arguello’s objections to the report and recommendation (Docket 18)
are overruled.
3. Respondents’ motion to dismiss (Docket 12) is granted.
4. Arguello’s motion for leave to process (Docket 16) is denied

as moot.

5. Arguello’s motions for certificate of appealability (Dockets 15 and 18)
are denied.
Dated January 28, 2021.

BY THE COURT:
/s/ "Karen (E. ScHreier
KAREN E. SCHREIER
UNITED STATES DISTRICT. JUDGE

4

UNITED STATES COURT OF APPEALS
FOR THE EIGHTH CIRCUIT
No: 21-1338
Joseph Arguello
Appellant
v.
Jason Ravnsborg, Attorney General for South Dakota and Darin Young, Warden State
Penitentiary
Appellees

Appeal from U.S. District Court for the District of South Dakota - Southern
(4:20-cv-04088-KES)
ORDER
If the original file of the United States District Court is available for review in electronic
format, the court will rely on the electronic version of the record in its review. The appendices
required by Eighth Circuit Rule 30A shall not be required. In accordance with Eighth Circuit
focal Rule 30A(a)(2), the Clerk of the United States District Court is requested to forward to this
Court forthwith any portions of the original record which are not available in an electronic
format through PACER, including any documents maintained in paper format or filed under seal,
exhibits, CDs, videos, administrative records and state court files. These documents should be
submitted within 10 days.
February 12, 2021

Clerk, U.S. Court of Appeals, Eighth Circuit.
/s/ Michael E. Gans

South Dakota District Court Version 1.1 LIVE DATABASE-Display Receipt

Page 1 of 1

This is an automatic e-mail message generated by the CM/ECF system. Please DO NOT
RESPOND to this e-mail because the mail box is unattended.
***NOTE TO PUBLIC ACCESS USERS*** Judicial Conference of the United States policy
permits attorneys of record and parties in a case (including pro se litigants) to receive one free
electronic copy of all documents filed electronically, if receipt is required by law or directed by the
filer. PACER access fees apply to all other users. To avoid later charges, download a copy of each
document during this first viewing. However, if the referenced document is a transcript, the free
copy and 30 page limit do not apply.
U.S. District Court
District of South Dakota
Notice of Electronic Filing
The following transaction was entered on 2/12/2021 at 2:53 PM CST and filed on 2/12/2021
Case Name:
Arguello v. Ravnsborg et al
Case Number:
4:20-cv-04088-KES
Filer:
WARNING: CASE CLOSED on 01/28/2021
Document Number: 28(No document attached)
Docket Text:
.... - • ------ — --------------■■■■-ORDER denying [21] Motion to proceed by supplemental application. Arguello has filed
a notice of appeal. If he wants to proceed, he needs to make his case to the Eighth
Circuit Court of Appeals. This court is not aware of any recognized procedure by
supplemental application. Signed by U.S. District Judge Karen E. Schreier on February
12, 2021. (Schreier, Karen)

4:20-cv-04088-KES Notice has been electronically mailed to:
i

Erin E. Handke erin.handke@state.sd.us, catherine.schlimgen@state.sd.us, janet.waldron@state.sd.us,
lynell.erickson@state.sd.us, wade.warntjes@state.sd.us
i

4:20-cv-04088-KES This document must be sent in hard copy to:
Joseph Arguello
23102
SOUTH DAKOTA STATE PENITENTIARY
PO Box 5911
Sioux Falls, SD 57117-5911

https://ecf.sdd.circ8.dcn/cgi-bin/DisplayReceipt.pl7115674920986773-L_l_0-l

I

2/12/2021

South Dakota District Court Version 1.1 LIVE DATABASE-Display Receipt

Page 1 of 1

This is an automatic e-mail message generated by the CM/ECF system. Please DO NOT
RESPOND to this e-mail because the mail box is unattended.
***NOTE TO PUBLIC ACCESS USERS*** Judicial Conference of the United States policy
permits attorneys of record and parties in a case (including pro se litigants) to receive one free
electronic copy of all documents filed electronically, if receipt is required by law or directed by the
filer. PACER access fees apply to all other users. To avoid later charges, download a copy of each
document during this first viewing. However, if the referenced document is a transcript, the free
copy and 30 page limit do not apply.
U.S. District Court
District of South Dakota
Notice of Electronic Filing
The following transaction was entered on 2/12/2021 at 2:50 PM CST and filed on 2/12/2021
Case Name:
Arguello v. Ravnsborg et al
Case Number:
4:20-cv-04088-KES
Filer:
WARNING: CASE CLOSED on 01/28/2021
Document Number: 27(No document attached)
-

Docket Text:
ORDER denying as moot [22] Motion for Certificate of Appealability. This court denied
Arguello's motion for certificate of appealability on January 28, 2021. For those same
reasons, the motion is denied again. Signed by U.S. District Judge Karen E. Schreieron
February 12, 2021. (Schreier, Karen)

4:20-cv-04088-KES Notice has been electronically mailed to:
Erin E. Handke erin.handke@state.sd.us, catherine.schlimgen@state.sd.us, janet.waldron@state.sd.us,
lynell.erickson@state.sd.us, wade.wamtjes@state.sd.us
4:20-cv-04088-KES This document must be sent in hard copy to:
Joseph Arguello
23102
SOUTH DAKOTA STATE PENITENTIARY
PO Box 5911
Sioux Falls, SD 57117-5911

https://ecf.sdd.circ8.dcn/cgi-bin/DisplayReceipt.pl713209524351894-L_l_0-l

2/12/2021

United States Court of Appeals
For The Eighth Circuit
Thomas F. Eagleton U.S. Courthouse
111 South 10th Street. Room 24.329

St. Louis, Missouri 63102
VOICE (314) 244-2400
FAX (314) 244-2780
www.ca8.uscourts.gov

Michael E. Gans
Clerk of Court
February 12, 2021

Mr. Joseph Arguello.
SOUTH DAKOTA DEPARTMENT OF CORRECTIONS
23102
1600 North Drive
P.O. Box 5911
Sioux Falls, SD 57117-0911
RE: 21-1338 Joseph Arguello v. Jason Ravnsborg, et al
Dear Mr. Arguello:
The district court clerk has transmitted a notice of appeal in this matter. In accordance
with Rule 24(a), Federal Rules of Appellate Procedure, the appeal has been docketed under the ‘
number indicated. Please include the caption and the case number on all correspondence or
pleadings submitted to this court.
We note that there are motions pending in the district court. Once we receive a ruling on
those motions, you appeal will proceed.
Counsel in the case must supply the clerk with an Appearance Form. Counsel may
download or fill out an Appearance Form on the "Forms" page on our web site at
www .ca8.uscourts.gov.
Please note that service by pro se parties is governed by Eighth Circuit Rule 25B. A copy
of the rule and additional informati on is attached to the pro se party's copy of this notice.
Michael E. Gans
Clerk of Court
CYZ
Enclosure(s)
cc:

Ms. Erin Elizabeth Handke
Mr. Matthew W. Thelen
District Court/Agency Case Number(s): 4:20-cv-04088-KES

Caption for Case Number: 21-1338
Joseph Arguello
Petitioner - Appellant
v.
Jason Ravnsborg, Attorney General for South Dakota; Darin Young, Warden State Penitentiary
Respondents - Appellees

21-1338 Joseph Arguello v. Jason Ravnsborg, et al

Eighth Circuit Court of Appeals
PRO SE Notice of Docket Activity
The following was filed on 02/12/2021
Case Name:
Joseph Arguello v. Jason Ravnsborg, et al
Case Number: 21-1338
Docket Text:
Prisoner case docketed. [5004062] [21-1338]
The following document(s) are associated with this transaction:
Document Description: Notice of Appeal Docketing T.etter
Notice will be mailed to:
Mr. Joseph Arguello
SOUTH DAKOTA DEPARTMENT OF CORRECTIONS
23102
... -1600 North Drive
,. ,....................... .
.
P.O. Box 5911
Sioux Falls, SD 57117-0911
Notice will be electronically mailed to:
Ms. Erin Elizabeth Handke: erin.handke@state.sd.us
Mr. Matthew W. Thelen: coadocs@sdd.uscourts.gov

UNITED STATES COURT OF APPEALS
FOR THE EIGHTH CIRCUIT
No: 21-1338
Joseph Arguello
Appellant
v.
Jason Ravnsborg, Attorney General for South Dakota and Darin Young, Warden State
Penitentiary
Appellees

Appeal from U.S. District Court for the District of South Dakota - Southern
(4:20-cv-04088-KES)
.... ORDER
The petition for rehearing en banc is denied. The petition for rehearing by the panel is
also denied.
June 29, 2021

Order Entered at the Direction of the Court:
Clerk, U.S. Court of Appeals, Eighth Circuit.
/s/ Michael E. Gans

£§>ebenti) STu&mal Circuit Court
P.O.Box 230
Rapid City SD 57709-0230
(605) 394-2571

CIRCUIT JUDGES
Craig A. Pfeifle, Presiding Judge
Matthew M. Brown
Jeffrey R. Connolly
JeffW. Davis
Robert Gusinsky
Heidi L. Linngren
Robert A. Manuel
Jane Wipf Pfeifle

MAGISTRATE JUDGES
Scott M. Bogue
Todd J. Hyronimus
Bernard Schuchmann
Marya Tellinghuisen

COURT ADMINISTRATOR
Kristi W. Erdman
STAFF ATTORNEY
Laura Hilt

May 14,2018
y Mr. Joseph Arguello, #23102
South) Dakota State Penitentiary
PO Box 5911
Sioux Falls, SD 57117
Re: Case no. 51CIV16-000580
Dear Mr. Arguello:
I am in receipt of your Motion for the Appointment of Counsel, and accompanying paperwork,
requesting the appointment of counsel to assist you with filing a (second) habeas application.
Attorneys are not appointed for the preparation of habeas applications. Consequently, your
Motion is denied. Additionally, please note that habeas cases are civil rather than criminal cases.
Consequently, your paperwork will be filed in your civil habeas case (51 CIV 16-000580) as
opposed to the related criminal case listed on your submission.
Sincerely,

Presiding Judge
CAP*lh

cc: Ms. Sarah Morrison, Pennington County State’s Attorney’s Office

United States Court of Appeals
For The Eighth Circuit
Thomas F. Eagleton U.S. Courthouse
111 South 10th Street, Room 24.329

St. Louis, Missouri 63102
VOICE (314) 244-2400
FAX (314) 244-2780
www.ca8.uscourts.gov

Michael E. Gans
Clerk of Court
February 16, 2021
Mr. Joseph Arguello
SOUTH DAKOTA DEPARTMENT OF CORRECTIONS
23102
1600 North Drive
P.O. Box 5911
Sioux Falls, SD 57117-0911
RE: 21-1338 Joseph Arguello v. Jason Ravnsborg, et al
Dear Mr. Arguello:

We have received notification from the district court that your motions for certificate for
^ appealability and in forma pauperis status have been denied. The fee remains due for this appeal.
Enclosed is an order of this court setting out your options for satisfying the Eighth Circuit fee. If
you fail to take either of these options, this appeal may be dismissed for failure to prosecute
without further notice.
Following notification that the fees have been paid or a motion for leave to appeal in
forma pauperis is filed, the notice of appeal will be treated as- an application for certificate of
appealability in accordance with Rule 22(b) of the Federal Rules of Appellate Procedure and will
be forwarded to a panel of judges for consideration. You will be advised of any action taken by
court.
If you have any questions, please contact this office.

Michael E. Gans
Clerk of Court
CYZ
Enclosures
cc:

Ms. Erin Elizabeth Handke
Mr. Matthew W. Thelen

District Court/Agency Case lNumber(sf Y

IN THE UNITED States Court of Appeals
FOR THE Eighth circuit
Joseph Arguello petitioner,

Cave- 21-1338
28 USC § 1291
Motion for Rehearing and Rehearing
Enbunc

Vs
Jason Ranvsborg et, al.
**********************************************************************

Whether the district court abused its discretion in refusing to hold
evidentiary hearing on ineffective assistance claim? Court must hold in the
positive, reverse and remand.

This court ruling is to show unless the motion files and record conclusively shows that
Arguello is entitled to no relief. An evidentiary hearing is critical required unless the allegations
in the motion are inherently incrediable.contradicted by the record, merely conclusory, or would
not entitle the petition to relief, even if true.
Cite, Roundtree v US, 751 F 3d 923,926-27(*8th Cir 2014).
this court is required to consider whether district court was required to conduct an evidentiary
hearing;Engelen v US, 68 F 3d 238,240-41(*8th Cir 1995).
In accordance to Martinez v Ryan 566 US 1,14-17.The United
States Supreme Court holding whether the claim has some merit, herein a substantial one. Fed
Constitutional issue.

Thus can only be achieved by district court hearing the parties both sides.
Question of law and fact is legal standard of review and burden of proof /legal analysis

!

I

an error of law as court cannot make a factual determination based on the relative credibility
of the individuals without an evidentiary hearing and observing that if neither statement is
facially incredible an both contain similar specificity, counsel contrary statement is sufficient to
support a finding that movants allegations cannot be accepted as true c/Roundtree v US 751 F
3d 923,925-27(8th Cir 2014). Credibility of narrators is required State v Craig, 850 NW 2d
828,839. (As here raised Fed 22 2021 State did not raise its insubstantial).
Cited United States v Blaylock, 20 F 3d 1458(*9th Cir 1994) Ida 1468-69; US v Morrison,
449 US 361,364,66 L Ed 2d 564,101 S.CT. 665(1981).This is court of appeals should reverse
and permit district court to rule on new trial. As State having asked for thirty days to respond.

Cited, Simmons v Lockhart, 915 F 2d 372,376(*8th Cir 1990) seen in application It is
moflsamrtEmgassayingircannbFbe cause to excuse a procedural default. AS here due to
Arguello was not given notice of admonishments as did not know that it's required of trial judge
to admonish the jury at each recess nor that Attorney Rensch had not objected Judge Duffy
saying this flies.

And wherefore, its State Habeas proceedings State court failed to appoint counsel to
represent him. Establishing cause as Arguello being then prohibited from raising his ineffective
assistance of counsel claim on direct appeal. Showing because could not raise ineffective
assistance of counsel in his direct appeal, and had not been given counsel in State habeas
proceedings procedural default must be excused lifted. Cause for government interference,
inordinate delay, and unjustifiable delay in State court proceedings. Cite Bookwalter v Steele
2017 US Dist Lexis 201514[*3]. State involvement is even greater when they appoint
counsel.

i

Certificate of service

One true and correct copy placed in the US mail postage prepaid to the following
Matthew W. Thelen
US Distrcit Court of South Dakota
US Courthouse
Office of the clerk,
400 Phillips, Rm 128
Sioux Falls, SD 57401
United State Court of Appeals
For the eighth circuit
St Louis, Missouri 63102

Pro-se by the petitioner /

Signed this

day of /M<Xy

2021

UNITED STATES COURT OF APPEALS
FOR THE EIGHTH CIRCUIT
No: 21-1338
Joseph Arguello
Appellant
v.
Jason Ravnsborg, Attorney General for South Dakota and Darin Young, Warden State
Penitentiary
Appellees

Appeal from U.S. District Court for the District of South Dakota - Southern
(4:20-cv-04088-KES)
ORDER
The $505 appellate filing and docketing fee has not been paid and is due. Appellant is
directed to either pay the fee in the district court or file a motion for leave to proceed in forma
pauperis in this court within 28 days of the date of this order. If appellant does not pay the fee or
move for IFP status by March 16, 2021, this appeal may be dismissed for failure to prosecute
without further notice.
February 16, 2021

Order Entered Under Rule 27A(a):
Clerk, U.S. Court of Appeals, Eighth Circuit.
/s/ Michael E. Gans

21-1338

Mr. Joseph Arguello
#23102
SOUTH DAKOTA DEPARTMENT OF CORRECTIONS
1600 North Drive
P.O.Box 5911
Sioux Falls, SD 57117-0911

21-1338 Joseph Arguello v. Jason Ravnsborg, et al

Eighth Circuit Court of Appeals
PRO SE Notice of Docket Activity
The following was filed on 06/04/2021
Case Name: Joseph Arguello v. Jason Ravnsborg, et al
Case Number: 21-1338
Docket Text:
PETITION for enbanc rehearing and also for rehearing by panel filed by Appellant Mr. Joseph
Arguello w/service 05/26/2021 [5042328] [21-1338] '
The following document(s) are associated with this transaction:
Document Description: petition for rehearing filed
Notice will be mailed to:
Mr. Joseph Arguello
SOUTH DAKOTA DEPARTMENT OF CORRECTIONS
1600 North Drive
P.O. Box 5911
Sioux Falls, SD 57117-0911
Notice will be electronically mailed to:
Ms. Erin Elizabeth Handke: erin.handke@state.sd.us

21-1338 Joseph Arguello v. Jason Ravnsborg, et al

Eighth Circuit Court of Appeals
PRO SE Notice of Docket Activity
The following was filed on 03/01/2021
Case Name: Joseph Arguello v. Jason Ravnsborg, et al
Case Number: 21-1338
Docket Text:
MEMORANDUM of Appellant Mr. Joseph Arguello in support of application for certificate of
appealability, Doc No. [5004076-2], w/service 03/01/2021. [5009409] [21-1338]
The following document(s) are associated with this transaction:
Document Description: Memo in Support of Application for COA
Notice will be mailed to:
Mr. Joseph Arguello
SOUTH DAKOTA DEPARTMENT OF CORRECTIONS
23102
...
•
1600 North Drive
P.O.Box 5911
Sioux Falls, SD 57117-0911
Notice will be electronically mailed to:
Ms. Erin Elizabeth Handke: erin.handke@state.sd.us

21-1338 Joseph Arguello v. Jason Ravnsborg, et al

Eighth Circuit Court of Appeals
PRO SE Notice of Docket Activity
The following was filed on 03/01/2021
Case Name: Joseph Arguello v. Jason Ravnsborg, et al
Case Number: 21-1338
Docket Text:
MOTION for leave to proceed on appeal in forma pauperis, filed by Appellant Mr. Joseph
Arguello w/service 03/01/2021. [5009417] [21-1338]
The following document(s) are associated with this transaction:
Document Description: Motion for IFP
Document Description: Envelope
Notice will be mailed to:
Mr. Joseph Arguello
SOUTH DAKOTA DEPARTMENT OF CORRECTIONS
23102
1600 North Drive
P.O. Box 5911
Sioux Falls, SD 57117-0911
Notice will be electronically mailed to:
Ms. Erin Elizabeth Handke: erin.handke@state.sd.us

21-1338

Mr. Joseph Arguello
#23102
SOUTH DAKOTA DEPARTMENT OF CORRECTIONS
1600 North Drive
P.O. Box 5911
Sioux Falls, SD 57117-0911

21-1338 Joseph Arguello v. Jason Ravnsborg, et al "Record filed"

Page 1 of 1

***NOTE TO PUBLIC ACCESS USERS*** Judicial Conference of the United States policy
permits attorneys of record and parties in a case (including pro se litigants) to receive one free
electronic copy of all documents filed electronically, if receipt is required by law or directed by the
filer. PACER access fees apply to all other users. To avoid later charges, download a copy of each
document during this first viewing.
Eighth Circuit Court of Appeals
Notice of Docket Activity
The following transaction was filed on 02/18/2021
Case Name:
Joseph Arguello v. Jason Ravnsborg, et al
Case Number: 21-1338
Docket Test:
RECORD FILED - MISC. RECORD, Comments: 1 envelope containing 1 CD of State Court Records
[Return to the District Court at end of case], Source Location: USDC / SDSF
[5005767] [21-1338] (Scott Lewandoski)
Notice will be electronically mailed to:
Ms.. Erin Elizabeth llandke: erin.handke@state.sd.us

Notice will be mailed to:
Mr. Joseph Arguello
SOUTH DAKOTA DEPARTMENT OF CORRECTIONS
1600 North Drive
P.O. Box 5911
Sioux Falls, SD 57117-0911
The following information is for the use of court personnel:

DOCKET ENTRY ID: 5005767
RELIEF(S) DOCKETED:
DOCKET PART(S) ADDED: 6709301, 6709302

https://ca8-ecf.sso.dcn/cmecf/servlet/ShowDoc/00814196367&type=n-html

2/18/2021

21-1338

Mr. Joseph Arguello
#23102
SOUTH DAKOTA DEPARTMENT OF CORRECTIONS
1600 North Drive
P.O. Box 5911
Sioux Falls, SD 57117-0911

#27351-a-SLZ
015 S.D. 103

5P**'

/nQ

wxJ-

^

IN THE SUPREME COURT
OF THE
STATE OF SOUTH DAKOTA

Ot

* * * *

STATE OF SOUTH DAKOTA,

Plaintiff and Appellee,

\o
V.

rcP1^'/

JOSEPH ARGUELLO,

£73 (V w ;J ■■■%>
(5 0 2.016)

Defendant and Appellant.
* * * *

APPEAL FROM THE CIRCUIT COURT OF
THE SEVENTH JUDICIAL CIRCUIT
PENNINGTON COUNTY, SOUTH DAKOTA
* * * *

THE HONORABLE JEFF W. DAVIS
Judge
* * * *

MARTY J. JACKLEY
Attorney General
JOHN M. STROHMAN
Assistant Attorney General
Pierre, South Dakota

Attorneys for plaintiff
and appellee.

ROBERT VAN NORMAN
Rapid City, South Dakota

Attorney for defendant
and appellant.
* * * *

CONSIDERED ON BRIEFS
ON NOVEMBER 30, 2015

;

#27351
[110.]

The record is unclear whether the judge ever watched the videos. At

an earlier motion hearing, the parties indicated that the judge should watch the
videos at his convenience because they were the subject of a pretrial motion. The
judge indicated at the end of that hearing that he would “get the videos watched.”
But there is no indication in the record-from a decision of the court or otherwisewhether the judge actually viewed the videos. We need not, however, determine
whether the judge watched the videos in this case. Even if we assume he did not,
Arguello cannot establish prejudice. Arguello failed to challenge the sufficiency of
the evidence on appeal. Therefore, the sufficiency of the evidence to support the
State s case stands unchallenged. Because Arguello has not established prejudice,
we reject his challenge to his conviction on this ground.
[111.]

---■ -- —

We do, however, reiterate that it is improper to leave the courtroom

during a trial. “The presiding judge iis an integral part of the trial court, and ought
not to be absent for any period while the trial is proceeding.” O’Conner, 231 N.W. at
524. It will thus be seen that the judge is an essential constituent of a court, and
that there can be no court m the absence of the judge or judges.” State u. Jackson,
21 S.D. 494, 113 N.W. 880, 881 (1907). Moreover, a judge’s absence can have a
significant effect on the jury. Jurors are mindful of a judge’s behavior during trial—
every word the judge says and every action the judge takes is received with
deference. People v. Vargas, 673 N.E.2d 1037, 1042 (Ill. 1996). Therefore, a “judge’s
absence from the bench during the course of the trial may create a negative
impression m the minds of the jury to the detriment of the defendant.” Id. We also
note that a judge’s absence may cause the jury to believe the matters

-6-

in court are

#27351
ZINTER, Justice

mi-]

Joseph Arguello was convicted o:
guello appeals his conviction on the ground that the

trial judge left the courtroom during the presentation of evidence. Arguello also
appeals on the ground that the judge failed to give the jury a statutorily required
admonishment before recesses and adjournments. We affirm.
Facts and Procedural History

[112.]

Joseph Arguello had a twenty-year, on-again, off-again relationship

with R.D. During one period of separation, R.D. married another man and they had
three children. R.D. divorced in 2007, and she reunited with Arguello in 2008.

[13.]

Circuit Court Judge Jeff Davis presided at trial. Immediately after the

jury was empaneled on the first day of trial, Judge Davis gave the following
admonition to the jury:
It s important that you honor your oaths as jurors. There’s a
statutory admonition I’m required to give you, which essentially
says: You are to form or express no opinions about the case,
discuss it among yourselves or allow anyone to discuss it with
you until it’s finally submitted to you for your determination
It s important that the testimony and the evidence come only
from the witness stand and has been properly admitted for y ou
folks to consider. Rather than say that at every recess, I’ll say
Remember the admonition,” and that’s what I’m talking about.
The judge did not give the full admonition again during the three-day trial. At each
recess or adjournment, he told the jury to "remember the recess admonition” (on

-1-

one

#27351
occasion he told the jury to “remember the recess admonition that I’ve given you in
the past”). The judge also failed to give any admonition before one lunch recess.

ET4.]

Near the end of .the second day of trial, the attorneys and the judge

agreed that the jury would view videos.
The judge then told the jury
that he had “ a little mission about 4 o'clock that involve [d] the state's attorney's
office on entirely unrelated matters” and that he would leave the

courtroom while
the jury watched the videos. The judge also told the jury that if necessary, “they'll
change [the videos] and offer them separate.”

The judge told the bailiff the jury

could take a break “in between” and he would be “back around
does not reflect the time the judge actually left th

.” The transcript

e courtroom and the time he

returned. However, there is no dispute that the judge left the courtroom while the
videos were presented to the jury and he returned to discharge the jui^y for the day.
It appears from the transcript that both attorneys agreed to have the

videos played

without the judge’s presence.1
Decision

CT5J

Arguello appeals raising two issues. Arguello first argues that Judge

Davis caused structural error, invalidating the convictions, because he left the
courtroom during the presentation of evidence.2 Structural

1-

Arguello’s appellate counsel did not represent him

192 199

nS

error requires reversal

at trial.

de n0V0' State v■ mi' 2004 S-D- 8. 11 21. 675 N.W.2d

-2-

#27351
without a showing of prejudice. Guthmiller v. Weber, 2011 S.D. 62, H 16, 804
N.W.2d 400, 406 (“A structural error resists harmless error review completely[.]”).
Structural errors so greatly affect the framework of the trial that they merit
automatic reversal. Id. 1 16 (quoting SuZZiucwi v. Louisiana, 508 U.S. 275, 282, 113
S. Ct. 2078, 2083, 124 L. Ed. 2d 182 (1993)). However, structural errors occur only
“m a very limited class of cases.” Neder v. United States, 527 U.S. 1, 8, 119 S. Ct.
1827, 1833, 144 L. Ed. 2d 35 (1999).
[16.]

This Court, following Neder, has only recognized six types of structural

error:

•

-^

(1) a deprivation of the right to counsel; (2) a biased judge; (3) an
_
unlawful exclusion of grand jurors of the defendant’s race; (4) a
^ - deprivation of the right of self-representation at trial;" (5) a" ^
deprivation of the right to a public trial; and (6) an erroneous
reasonable doubt standard.

Guthmiller, 2011 S.D. 62, H 16, 804 N.W.2d at 406 (citing Neder, 527 U.S. at 8, 119
S. Ct. at 1833); State u. Hayes, 2014 S.D. 72, 1 17, 855 N.W.2d 668, 674-75. We
have also followed the Supreme Court in rejecting any sort of “functional
equivalents].” Guthmiller, 2011 S.D. 62,1 16, 804 N.W.2d at 406 (citing Neder, 527
U.S. at 8, 119 S. Ct. at 1833). Therefore, we have declined to find an error
structural unless it fits within one of the six categories. See id. at 1 17 (“Here, the
trial judge’s improper comments do not fit within one of the six categories of
structural error recognized by the Supreme Court.”).
[17.]

This case is like Guthmiller. The judge erred in leaving the courtroom

during the presentation of evidence, but the error is not one of the six recognized
structural errors. See Guthmiller, 2011 S.D. 62, HI 17-18, 804 N.W.2d at 406-7.
Arguello recognizes the Guthmiller categorical framework. Therefore, he argues
-3-

#27351
that the judge’s absence from the courtroom violated some of the constitutional
rights recognized in the six categories; i.e. the rights to counsel, due process, and a
public trial. But there is no evidence suggesting that the judge’s absence violated
any one of those constitutional rights. There is certainly no evidence suggesting a
constitutional violation so egregious as to “necessarily render^ [the] trial
fundamentally unfair." See id. at f 16. Because the error in this case does not fit
the categorical framework, we conclude that no structural error occurred.

ns.]

This conclusion is supported by our pre-Neder cases disapproving

judges leaving the courtroom during trials. Although we have consistently
disapproved of this conduct, we have not reversed without a showing of prejudice.
In O’Connor v. Boliney, 57 S.D. 134, 231 N.W. 521, 524 (1930), the judge and court
reporter left the courtroom during closing arguments. We “emphatically
disapproved” the judge’s departure but we affirmed the judgment, indicating that
the judge’s absence alone was insufficient to reverse. O’Conner, 231 N.W. at 524
(“We do not say that what is claimed to have taken place during the absence of the
judge and reporter in this case would alone be sufficient cause for reversal, but such
practice is emphatically disapproved.”). In Poe v. Arch, 26 S.D. 291, 128 N.W. 166,
168 (1910), a trial judge briefly left the courtroom when a party fainted and was
carried to an adjoining room, but defense counsel continued with his argument,

We

again upheld the jury verdict because there was no prejudice to the defendant. Id.

-4-

#27351
Many other state and federal cases support the conclusion that a trial judge’s
absence is improper, but it is not structural error. 3

nf9j

Because there was no structural error, Arguello must establish

prejudice. Arguello argues that he was prejudiced because the judge’s absence
prevented a fair consideration of his motion for judgment of acquittal. Arguello
contends that because the judge was not present to observe,
-he judge could not have properly considered
Arguello’s challenge to the sufficiency of the evidence.

3.

See United States v. Love, 134 F.3d 595, 604-05 (4th Cir. 1998) (rejecting the
defendant s argument that the judge’s temporary absence was stmctural

States*m F 2d70oTof(5lPrejUlo!,wrtify reVeKaI); Heflin v’ Vnited

p
’ , j
, 01 (5th Cir. 1942) (holding that a judge’s absence for a
t~t6S T* Cl°SmgnargUment did not result ^ prejudice and was

is true that a
was not so egregiously prejudicial as to deny Sherman a fair trial ”V StatP ,,
Scott, 824 N W.2d 668, 687 (Neb. 2012) (“Allhough we Lapprovlof tte
fro g7>,PraC, ’ T COnclude that Scott did not establish prejudice resulting
nvpm ^e,jadge s absences and that the district court did not err when it
P 3d 684 rOkl mr
Ar 116 o trial °n thiS baSis-’); Coddington v. State, 254

VtT*that a iudge's absence d- -

We recognize that other cases have concluded that a judge's absence from the
F 3d 240m242n(3d Cfr S if T
^
StC“eS v‘
1«1
r • 1 J j . ' f 1998) Ending structural error when the judge
nartv^RV UnnnClTng statements’ without consent or knowledge^ either
furW Rl\!ey U' DeedS> 56 R3d 1117’ 1119-20 (9th Cir. 1995) (holding that a
judge s absence was structural error when the judge did not present himself
o ave testimony read back, leaving the task to his law clerk)- Peonlp

durfrg ’a'^triaHs43' 1038 <I1L 1h,96) <h°ldlng that 8
categorical approach.
-5-

#27351
not important enough to merit attention. We adopt the Massachusetts Sup re me
Court’s view that:
The very act of a judge’s presiding over the trial has a profound
and sobering influence on all those who are present in the
courtroom. ’[T]he core of our constitutional system is that
individual liberty must never be taken away by shortcuts.. ..’
Commonwealth v. Bergstrom, 524 N.E.2d 366, 377 (Mass. 1988) (quoting Jay v.
Boyd, 351 U.S. 345, 369-70, 76 S. Ct. 919, 933, 100 L. Ed. 2d 1242 (1956) (Black, J.,
dissenting)).
[112.]

Arguello also argues that we should reverse his convictions because

Judge Davis failed to fully and regularly admonish the jury at each recess and
adjournment.4 SDCL 23A-24-5 requires that the following admonition.be:given .±n
jurors at each adjournment of court:
Jurors shall, at each adjournment of court, whether permitted to
separate or kept in charge of officers, be admonished by the
court as follows: You are reminded that you are not to discuss
any aspect of this case among yourselves or with anyone else
and that you should not form or express any opinion on the case
until it is given to you for decision.
Id. Substantial compliance with this requirement is sufficient. State v. Brim, 2010
S.D. 74, 1 14, 789 N.W.2d 80, 85 (holding that the judge substantially complied with
the statute at each and every recess and adjournment);see also State v. Iron
Necklace, 430 N.W.2d 66, 78 (S.D. 1988) (holding that failing to specifically
admonish one alternate juror at the beginning of trial was not grounds for a
mistrial when the judge carefully followed the statutory mandate at every other
4.

Jury admonitions involve courtroom procedure. We review a trial judge’s
alIeged violation of courtroom procedures for an abuse of discretion. State v.
BeTaTla, 2UU87STD737f T87T¥OI7W72ir8U27 W77
-7-

#27351
adjournment). Substantial compliance means “actual compliance with respect to
the substance essential to every reasonable objective of the statute.” R.B.O. v.
Congregation of Priests of Sacred Heart, Inc., 2011 S.D. 87, f 12, 806 N.W.2d 907,
911-12 (quoting Wagner u. Truesdell, 1998 S.D. 9, f 7, 574 N.W.2d 627, 629).
Substantial compliance cannot be shown unless the purpose of the statute has been
served. Id.
[1113.]

Arguello contends that the judge did not substantially comply with the

statutory mandate. We agree. On the first day of trial, immediately after the jury
had been empaneled, the judge’s first admonition substantially complied with the
statute. However, he never gave the one-sentence admonishment again in a three' da;y tnalr'Inste^dv'at bach adjournmeWoFfecess, he merely told~the ]ury to

' “

remember the admonition. Additionally, the judge gave no admonishment before
the lunch recess on the second day of trial.
[1114.]

The purpose of the admonishment is to prevent juror misconduct.

More specifically, its purpose is to dissuade jurors from forming or expressing any
opinion about the case until all of the evidence has been presented. The
admonishment is also intended to dissuade jurors from talking about the case with
anyone, including each other, until the case has been finally submitted for their
consideration. In a three-day trial, these purposes are not fulfilled by only one
admonishment given before the presentation of evidence has started. It is too much
to expect that jurors will remember the specific admonitions one, two, and three
days after they are first given. To be effective, it is also important to emphasize the
admonition when the evidence is being heard—the time when jurors are most likely
-8-

#27351
to forget to keep an open mind until they hear all of the evidence. Additionally, the
admonition must be repeated to dissuade the jurors from communicating among
themselves and with others. The stakes are too high in today’s environment of
smartphones, the internet, and social media to not repeat the full admonition. We
are not suggesting that substantial compliance cannot be found without parroting
the statute at every break. But the purpose of the admonishment is to prevent
juror misconduct, and only one actual admonishment at the end of jury selection is
not sufficient to satisfy that purpose. We conclude that the admonishments given in
this case did not substantially comply with the statute.

Hfl6J

The question then, is what is the remedy for the failure to

suBstahtialiy comply with the statute? Arguello argues that reversal is required
because if we condone what occurred, SDCL 23A-24-5 will become a nullity.
Arguello is correct to the extent that we cannot condone the admonitions given in
this case. However, our cases have established that reversal is not warranted
where there is no indication that the failure to properly admonish resulted in
prejudice. See Brim, 2010 S.D. 74, If 13, 789 N.W.2d at 85 (“The trial court’s failure
to admonish the first panel of venirepersons does not constitute reversible error as
there is no indication that the failure to do so affected the verdict in this case.”); see
also Iron Necklace, 430 N.W.2d at 78 (concluding that a minor omission did not
affect the verdict); State v. Lang, 354 N.W.2d 723, 725 (S.D. 1984) (same).
[116.]

A prejudice requirement is warranted because the admonition is a

prophylactic measure against juror misconduct, but if the harm the statute is
-int-ended-t-6-pr-event^ever-oc.curs<_r.e.versal to have the admonition given, would be
-9-

#27351
pointless. United States v. Nelson, 102 F.3d 1344, 1348 (4th Cir. 1996) (holding a
judge’s complete failure to admonish jury was not fundamental error meriting
automatic reversal where the party failed to object and no prejudice or harm was
shown).5 See also State v. Lopes, 826 A.2d 1238, 1252-53 (Conn. App. Ct. 2003)
(holding that the defendant was not entitled to reversal without a showing of
prejudice, even though the judge did not comply with the terms of the statute);
People v. Small, 2 A.D.2d 935, 935, (N.Y. App. Div. 1956) aff’d, 143 N.E.2d 512 (N.Y.
1957) (holding that it was error for a judge to not admonish the jury at all on any
subject until the case was submitted, but it was not reversible error without a
showing of prejudice). Because Arguello concedes that he cannot show prejudice as
a result of this error, we also deny his challenge to his convictions on this ground.
[117.]

Affirmed.

[118.]

GILBERTSON, Chief Justice, and SEVERSON, WILBUR, and KERN,

Justices, concur.

5.

Nelson acknowledged United States u. Williams, 635 F.2d 744, 745 (8th Cir.
1980), where no showing of prejudice was required to warrant reversal.
Nelson noted that Williams was decided before United States v. Olano 507
U.S. 725, 113 S. Ct. 1770, 123 L. Ed. 2d 508 (1993). In Olano, the Sup reme
Court noted that reversal would be pointless in a case where no harm
resulted from an alternate juror sitting in on deliberations. Olano, 507 U.S.
at 738, 113 S. Ct. at 1780. Because Olano held that reversal for that error
would be pointless where the harm sought to be prevented never occurred,
W£_are_p_ersuaded bv the reasoning- in
Nelson.
-10-

Additional material
from this filing is
available in the
Clerk's Office.

